           U.S. Small Business Administration
           Office Inspector General                                  Memorandum
    To:    Eric R. Zarnikow                                                                     Date:   December 4, 2009
           Associate Administrator for Capital Access
           /s/ Original Signed
  From:    Debra S. Ritt
           Assistant Inspector General for Auditing

Subject:   Review of Controls Over Job Creation and Retention Statistics Reported by SBA
           under the American Recovery and Reinvestment Act of 2009
           ROM-10-04

           This memorandum presents the results of our initial review 1 of job creation and
           retention statistics reported by the Small Business Administration (SBA) under the
           American Recovery and Reinvestment Act of 2009 (Recovery Act). The
           Recovery Act provided SBA with $730 million to expand the Agency’s lending
           and investment programs and to create new programs to stimulate lending to small
           businesses. The additional funding was intended to stimulate the economy by
           promoting job creation and preserving existing jobs. SBA selected job creation
           and retention as one of its performance measures to assess the success of its
           Recovery Act programs. Based on our initial review of program statistics reported
           by SBA, we identified issues involving the reasonableness of reported job creation
           and retention statistics for loans approved in June 2009, which raised questions
           about whether SBA had the appropriate controls to ensure the integrity of its job
           data. At the time of our audit, the June 2009 data was the only full month of
           Recovery Act data available for review.

           To assess the reasonableness of job creation and retention statistics reported for
           June 2009, we examined job data maintained in SBA’s Electronic Transaction
           System (E-Tran). System records showed that lenders approved 3,841 Recovery
           Act 7(a) loans in June 2009 valued at $957 million and 182 American Recovery
           Capital (ARC) loans valued at $6.1 million. To ensure that we had the appropriate

           1
               Our initial review focused on the reasonableness of job statistics reported by SBA and did not include a validation of
               the statistics against information reported by borrowers.
                                                                                                            2

data, we compared it to the statistics reported by SBA in its June 2009 Monthly
Recovery Act Program Performance Report.

Using data analysis software, we analyzed the reported job creation and retention
statistics to identify statistical outliers. We calculated the mean and standard
deviation for the 3,841 7(a) Recovery Act loans, and using this information, we
calculated the z-scores or “standard scores” for jobs reported on each loan. The
z-score indicates how many standard deviations each item is from the mean. For
purposes of this review, we considered loans with z-scores exceeding +/- 3 to be
statistical outliers. See Appendix II for more details on our statistical analysis.

We also examined how jobs were reported for multiple loans to the same
businesses. In addition, we interviewed SBA officials from the Office of Capital
Access, reviewed the 7(a) loan application to determine how job data is captured
for 7(a) loans, and reviewed guidance to lenders for reporting job creation and
retention statistics for 7(a) loans. We performed our analysis on job data from
August 2009 to September 2009 in accordance with Government Auditing
Standards prescribed by the Comptroller General of the United States.

BACKGROUND

On February 17, 2009, President Obama signed the Recovery Act into law to
stimulate lending and promote economic recovery. The Recovery Act called for
unprecedented levels of transparency and accountability in carrying out Agency
programs and established the Recovery Accountability and Transparency (RAT)
Board to coordinate and conduct oversight of funds distributed under the Act in
order to prevent fraud, waste, and abuse. Subsequent guidance issued by the
Office of Management and Budget (OMB), 2 required Agencies to develop
performance measures to assess the quantifiable outcomes of their Recovery Act
programs. One of the performance measures selected by SBA for its Recovery
Act loan programs was job creation and retention.

Shortly after its formation, the RAT Board emphasized to Offices of Inspector
General (OIG) the importance of ensuring the reliability of job creation and
retention data being reported by Federal agencies. In response to the RAT Board’s
concern, in May 2009, we performed a preliminary review of SBA’s job creation
and retention data for the 7(a) loan program. Upon completion, we informed SBA
officials that SBA’s E-Tran, which contains the data used to report Recovery Act
performance statistics, included erroneous loan approvals, 3 questionable job
statistics on several loans, and double counting of jobs created and/or retained
from multiple loans to the same small businesses. As a result of this discussion,

2
    Memorandum M-09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009.
3
    Erroneous loan approvals are those approved for $0.
                                                                                   3

management removed erroneous loan approvals from its reported loan approval
statistics, but did not address the other deficiencies.

SBA’s Monthly Recovery Act Program Performance Report (See Appendix I)
included 44,990 jobs created or retained by businesses that received 7(a) Recovery
Act loans 4 and 2,000 jobs created or retained by businesses that received
American Recovery Capital (ARC) loans in June 2009. This job data was self-
reported by borrowers on SBA 7(a) loan applications and submitted to SBA by
lenders. Lenders are not required to validate the borrower-reported information.

RESULTS IN BRIEF

The SBA-reported number of jobs created and/or retained in June 2009 may have
been overstated by at least 16 percent because it included (1) statistical outliers,
(2) negative jobs reported, (3) double-counted jobs, and (4) jobs created by ARC
loans. We identified 40 statistical outliers that resulted in an apparent
overstatement of 6,200 jobs, or 14 percent of the 44,990 total jobs reported. We
also identified negative job numbers reported on three loans, which demonstrated
a data input control weakness. Reported jobs also may be overstated as a result of
double counting. Some of this occurred because SBA did not take into account
that the same jobs were reported multiple times for businesses that received
multiple loans. In addition, some lenders reported new jobs as both jobs created
and jobs retained, resulting in a 2 percent overstatement of jobs created/retained
by 7(a) loans. Furthermore, even though SBA elected to use job retention as its
performance measure for the ARC loan program, 5 percent of the jobs associated
with ARC loans were reported as new jobs.

The reported job creation and retention statistics may be further misleading as
many of the loans causing job creation/retention had not been disbursed. As of
June 30, 2009, SBA approved 7(a) Recovery Act loans totaling $3.1 billion, which
were reported to have created or retained approximately 155,000 jobs. However,
only $1.7 billion of the approved loans, representing 95,000 jobs, had been
disbursed. SBA could improve the transparency of the reported job data if it also
disclosed the number of jobs associated with disbursed loans.

SBA’s reported job statistics may be inaccurate because SBA’s E-Tran system did
not include the necessary input, reporting, and documentation controls to ensure
that job statistics were properly recorded, classified, and accounted for. While we
notified SBA officials of this in May 2009, as of September 10, 2009, SBA had
not taken appropriate corrective action to implement the necessary controls.
Furthermore, unlike the 504 loan program, SBA has not provided lenders with
adequate guidance on how to report job creation and retention statistics for 7(a)

4
    These loans do not include American Recovery Capital (ARC) loans.
                                                                                                                          4

loans. As a result, lenders have employed inconsistent methodologies when
reporting job statistics.

We recommended that the Associate Administrator for Capital Access:
(1) implement the necessary controls to check the reasonableness of job data;
(2) implement a data quality review and testing process to determine if job data is
properly recorded, classified, and reported; (3) determine whether the new jobs
reported for ARC loans are data anomalies and if not, revise performance
measures to report on jobs created; (4) improve the transparency of the reported
data by disclosing the number of jobs associated with disbursed loans; and
(5) establish adequate guidance on how lenders should report job statistics for 7(a)
loans.

Management agreed with recommendations 1, 2 and 3, disagreed with
recommendation 4, and neither agreed nor disagreed with recommendation 5.
Management stated it was committed to accurate and transparent reporting
regarding the impact of its Recovery Act programs in stimulating the economy and
supporting job creation and retention. Management also acknowledged the
challenges associated with measuring the job creation impact and agreed to take
additional steps to enhance the data quality and controls related to the job creation
metrics.

RESULTS

Job Creation and Retention Figures in SBA’s June 2009 Report Were
Overstated

SBA may have overstated the reported number of jobs created and retained in its
June 2009 Recovery Act Program Performance Report by at least 16 percent. Our
review identified anomalies in SBA’s reported job data that occurred because the
data was not adequately reviewed for reasonableness. We also determined that
jobs were double counted for businesses receiving multiple loans and when
lenders reported the same jobs as being both created and retained.

SBA Did Not Establish Reasonableness Checks to Prevent Anomalies in
Reported Job Creation and Retention Data

The majority of reported jobs per loan fell within statistically reasonable ranges.
However, we identified a small number of loans that represented statistical
outliers 5 that may have caused job data to be significantly overstated.
Specifically, 40, or 1 percent, of 7(a) loans approved in June 2009 were reported

5
    Statistical outliers are those loans for which total reported jobs exceed three standard deviations of the mean i.e. have
    z-scores exceeding +/- 3. See Appendix II for details on our statistical analysis.
                                                                                     5

to have created and/or retained 16 percent of the total jobs reported. Based on
SBA’s estimate that one job is created for every $26,000 in 7(a) loan value or
$9,000 in SBAExpress loan value, job creation and retention figures for these 40
loans may have been overstated by approximately 88 percent. Based on these
results, we estimate that 6,200 jobs, or 14 percent of the 44,990 total jobs reported
in June 2009 may be overstated. Although SBA was aware of the outliers, they
were included in the Agency’s June 2009 Recovery Act Program Performance
Report. For example, SBA reported that a $658,000 loan created/retained 700
jobs when, using SBA’s estimation criteria, it was expected to result in only 25
jobs. Another $350,000 loan was reported to create/retain 600 jobs, when it
should have been estimated to result in only 13. See Appendix III for details on
all 40 outliers.

We also identified three loans in SBA’s reported statistics that had negative job
numbers. For example, -20 jobs were reported for a $570,000 loan. These loans
did not qualify as statistical outliers and did not materially impact the
overstatement of jobs reported. However, they demonstrate an input control
weakness that SBA should address.

Job Creation and Retention Statistics Included Jobs that Appeared to Be Double
Counted

The apparent overstatement of jobs in June 2009 was also due to the double
counting of jobs when aggregating multiple loans to the same businesses. We
determined that 224 businesses received 2 or more of the 3,841 loans approved in
June 2009. While it is often appropriate for a business to receive multiple 7(a)
loans, in many cases, lenders reported to SBA the same number of jobs created
and retained for each of the borrower’s loans. For example, one business was
approved for 2 loans on the same day in June, totaling $75,000 and $125,000 and
the number of jobs reported to have been created or retained under each loan was
85. As a result, SBA reporting reflected a total of 170 jobs created or retained by
this business. We did not quantify how much the statistics were overstated as a
result of the apparent double counting of jobs associated with multiple loans to the
224 businesses, as it would have required a detailed review of each loan file.

Lenders also double counted loans because job data on 7(a) loan applications was
categorized differently than that shown in the E-Tran system used to transmit the
statistics to SBA. For example, the 7(a) loan application requires borrowers to
report “the number of employees at loan application” (jobs retained) and “the
number of employees if the loan is approved,” (jobs created and retained). This
information is captured in three different fields in E-Tran–“current employee
quantity,” “jobs created quantity,” and “jobs retained quantity.” We noted that
some lenders were using information from the loan application incorrectly, which
resulted in the reporting of new jobs as both jobs created and jobs retained. Such
                                                                                    6



reporting appeared to have resulted in a 2-percent overstatement of jobs reported
for 7(a) loans in June 2009.

SBA Lacked the Necessary System Controls and Lender Guidance to Ensure the
Reasonableness of Reported Job Creation and Retention Statistics

In accordance with OMB Circular A-123, SBA is required to implement the
appropriate controls to ensure that job data is properly recorded, classified, and
accounted for. However, SBA’s E-Tran system did not include input controls, or
reasonableness checks, to ensure that the number of jobs reported was appropriate
relative to the dollar value of each loan. For example, reasonableness checks
should have been embedded in E-Tran to prompt lenders or prevent submission of
their reports when (1) the number of reported jobs fell outside an acceptable range,
(2) negative job figures were entered, or (3) a previous loan was made to the same
business. While we notified SBA officials of the missing controls in May 2009, as
of September 10, 2009, SBA had not taken appropriate action to implement the
necessary controls to be responsive to the transparency and accountability
requirements of the Recovery Act. In addition, SBA did not implement a data
quality review and testing process to determine if job data was properly recorded,
classified, and reported. This is necessary regardless of the input controls that are
implemented to ensure the accuracy and integrity of the reported data.

SBA also had not provided lenders with specific guidance on how to report job
creation and retention statistics for 7(a) loans in E-Tran. While SBA issued an
information notice on September 22, 2009, explaining its job reporting
methodology for Capital Access Programs, the notice did not provide instructions
for reporting job retention and creation statistics for 7(a) loans. Because we found
that lenders applied inconsistent methodologies when reporting job statistics,
providing specific instructions for E-Tran data entry would help prevent future
misreporting of job statistics from borrower-provided information.

SBA Counted New Jobs toward Meeting its Job Retention Goals for the ARC
Loan Program

For all jobs reported for the ARC loan program in June 2009, 91, or 5 percent,
represented new jobs. However, this program was established to help sustain
businesses and retain jobs by providing loans of up to $35,000 to businesses
experiencing financial hardship. Consequently, SBA defined a goal of retaining
31,000 jobs. SBA will need to determine whether the new jobs reported are data
anomalies, and if not, revise its performance measure to report on jobs created.
                                                                                   7



Transparency of Reported Job Statistics Could Be Improved

The reported job creation and retention statistics for June 2009 were further
misleading because they were based solely on loans that had been approved,
regardless of whether they were ever disbursed. Between February 17, 2009, and
June 30, 2009, SBA approved Recovery Act loans totaling $3.1 billion that it
reported had created or retained approximately 155,000 jobs. However, lenders
disbursed only $1.7 billion, or 55 percent of the total loan dollars approved, which
resulted in the creation or retention of 95,000 jobs. We believe that reporting on
just approved loans may inflate the job statistics and economic impact reported as
many loans are cancelled after approval or not disbursed immediately. To its
credit, SBA did disclose that approximately 15 to 20 percent of the gross loan
approval value would not get disbursed, however, greater transparency would be
achieved if SBA were to also report those jobs associated with disbursed loans as
the real economic impact from job creation and retention is realized when loans
are disbursed.

RECOMMENDATIONS

We recommend that the Associate Administrator for Capital Access:

   1. Implement the necessary controls to check the reasonableness of data,
      including user prompts, range checks, and the prevention of negative
      figures, in E-Tran to ensure the accuracy of lender-reported job creation
      and retention statistics.

   2. Implement a data quality review and testing process to determine if job data
      is properly recorded, classified, and reported.

   3. Determine whether the new jobs reported for ARC loans are data anomalies
      and if not, revise performance measures to report on jobs created.

   4. Improve the transparency and accountability of the reported data by
      disclosing the number of jobs associated with disbursed loans in the
      monthly Recovery Act Program Performance Reports.

   5. Establish adequate guidance on how lenders should report jobs created and
      retained for 7(a) loans.
                                                                                   8

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On November 10, 2009, we provided a draft of this report to SBA for comment.
On November 30, 2009, SBA submitted its formal comments, which are contained
in their entirety in Appendix IV. Management agreed with recommendations 1, 2
and 3, disagreed with recommendation 4, and neither agreed nor disagreed with
recommendation 5. Management stated it was committed to accurate and
transparent reporting regarding the impact of its Recovery Act programs in
stimulating the economy and supporting job creation and retention. Management
also acknowledged the challenges associated with measuring the job creation
impact and agreed to take additional steps to enhance the data quality and controls
related to the job creation metrics. Specific management comments on the report
recommendations, and our evaluation of them, are summarized below.

Recommendation 1

Management Comments

Management agreed with the recommendation and stated it was looking at the
Agency’s systems, including E-Tran, to determine the appropriate long and short
term business rules around fields for job creation and retention numbers.

OIG Response

Management’s comments were responsive to this recommendation. In response to
the final report, please identify the specific controls you plan to implement to
ensure the accuracy of lender-reported statistics and a target date for final action.

Recommendation 2

Management Comments

Management agreed with the recommendation and is in the process of procuring a
data quality contractor to assist in the review and testing of Recovery Act program
data, including job creation data.

OIG Response

Management’s comments were responsive to this recommendation. In response to
the final report, please explain how you plan to implement a data quality review
and testing process to determine if job data is properly recorded, classified and
reported and provide a target date for final action.
                                                                                         9

Recommendation 3

Management Comments

Management agreed with this recommendation and stated that although the ARC
loan program was established to help sustain small businesses, it is also possible
that these loans help employers create new jobs. As a result, management stated it
will review the information reported for job creation in the ARC loan program and
determine whether to revise goals and reporting to include jobs created and
retained.

OIG Response

Management’s comments were responsive. In response to the final report, please
provide a target date for final action.

Recommendation 4

Management Comments

Management respectfully disagreed with this recommendation. Management
stated that it considered our recommendation of reporting job creation both at the
point of approval and disbursement. Management decided, however, that it was
more appropriate to report job creation at the point of approval since
disbursements can lag for several months and cross into another fiscal year,
increasing the complexity of the reporting process. Furthermore, management
stated that both SBA and OMB believe that reporting information for both
approved and disbursed loans would be confusing to users of the information.
Management stated it would continue to adjust the job creation and retention
figures at the end of the fiscal year to reflect only those jobs that were reported as
created or retained for loan approvals, net of cancellations.

OIG Response

We continue to support our position that SBA could improve the transparency and
accountability of the reported data by reporting the number of jobs associated with
disbursed loans in its monthly Recovery Act Program Performance Reports. We
made this recommendation because the economic impact from job creation and
retention of 7(a) loans is not realized until these loans are disbursed. Our
recommendation was intended to provide an additional and more substantive
measure of the Recovery Act’s program impact. Furthermore, we are not
requesting that these loans be reported on a fiscal year basis, and therefore, do not
believe our recommended actions would increase the complexity of the reporting
process. We plan to discuss with OMB officials any concerns they may have with
                                                                                    10

our recommendation. We will seek a management decision for this
recommendation through the audit resolution process.

Recommendation 5

Management Comments

Management stated that unlike the 504 program, job creation/retention is not a
required element of the 7(a) program. Further, management stated that SBA
makes clear in its reporting of job creation and retention figures that they are self-
reported by borrowers. Nevertheless, management stated it would review the
consistency of the self-reported job creation/retention data and determine what
level of guidance might be appropriate for borrowers, who include this
information on their loan forms.

OIG Response

Management’s comments were not responsive to this recommendation as it did not
specifically state whether it agreed or disagreed with the recommendation. We
continue to support our position that guidance should be provided to the lenders on
how to report jobs created and retained for 7(a) loans. As explained in our audit
report, borrowers are required to report “the number of employees at loan
application” and “the number of employees if the loan is approved” on their loan
applications. It is the lenders’ responsibility, however, to report to SBA the
number of jobs created and retained and it is this lender-reported data that is used
by SBA in its monthly Recovery Act Performance Reports. We will seek a
management decision for this recommendation through the audit resolution
process.

ACTIONS REQUIRED

Please provide a written response providing additional details for implementing
the recommendations within 30 days from issuance of this report, using form 1824
for all recommendations in our report.

We appreciate the courtesies and cooperation of the Office of Capital Access
during this audit. If you have any questions concerning this report, please call me
at (202) 205-[FOIA ex. 2] or Debra Mayer, Director, Recovery Oversight Group,
at (202) 205-[FOIA ex. 2].
                                             11

APPENDIX I. JUNE 2009 RECOVERY ACT PROGRAM
PERFORMANCE REPORT
                                                                                    12

APENDIX II. STATISTICAL ANALYSIS

Using IDEA® data analysis software (IDEA), we performed a statistical analysis
of the job data reported for the 3,841 7(a) Recovery Act loans approved in June
2009. This included 2,333 7(a) loans 6 and 1,508 SBAExpress loans. The loans
were separated in this manner to be consistent with SBA’s methodology for
calculating the dollar value of loans per job created or retained. SBA estimated
that the SBAExpress loan program created one job for every $9,000 in loan value,
while all other 7(a) loans created one job for every $26,000 in loan value.

For both groups of loans, IDEA calculated the total reported job mean and
standard deviation. The mean is the natural center or origin of the values in the
universe and the standard deviation is the distribution of the data. Using this
information, we calculated the z-scores or standard scores for each loan. The z-
score indicates how many standard deviations each item is from the mean and is
calculated as follows, where x represents the jobs reported, m represents the job
mean and sd is the standard deviation:

                                                      Z=x–m
                                                         sd

According to the Empirical Rule of statistics, approximately 99.7-percent of all
items in a data set lie within a range of +/- 3 standard deviations from the sample
mean and loans outside of +/- 3 standard deviations are outliers. Therefore, we
considered loans with z-scores beyond + / - 3 to be statistical outliers.




6
    These include all types of 7(a) loans except for SBAExpress loans.
                                                                        13

APPENDIX III. JUNE 2009 JOB CREATION AND
RETENTION OUTLIERS
                       E-Tran        Expected
                      Reported      Jobs based      Job
     Loan Amount                                              Z-score
                    Jobs Created/     on SBA     Difference
                      Retained       Estimate
        $500,000         127             19         108         3.51
        $184,000         150              7         143         4.22
        $350,000         600             13         587        18.14
       $2,000,000        120             77          43         3.29
        $250,000         509             10         499        15.33
        $827,000         120             32          88         3.29
        $658,800         700             25         675        21.24
        $500,000         120             19         101         3.29
       $1,160,000        160             45         115         4.53
        $805,000         375             31         344        11.18
         $20,000         150              1         149         4.22
        $680,000         166             26         140         4.72
        $300,000         250             12         238         7.32
       $1,700,000        563             65         498        17.00
       $1,500,000        137             58          79         3.82
        $200,000         150              8         142         4.22
         $60,000         117              2         115         3.20
        $342,000         140             13         127         3.91
        $190,000         145              7         138         4.07
        $444,000         120             17         103         3.29
        $150,000         309              6         303         9.14
        $300,000         100             33          67         6.46
        $100,000         200             11         189        13.55
        $100,000         150             11         139        10.01
        $200,000          60             22          38         3.63
         $75,000          85              8          77         5.40
         $60,000          55              7          48         3.27
        $100,000          62             11          51         3.77
        $300,000         205             33         172        13.91
        $300,000         100             33          67         6.46
         $58,000          53              6          47         3.13
        $280,000         108             31          77         7.03
        $100,000          52             11          41         3.06
        $250,000          58             28          30         3.49
        $220,000          70             24          46         4.34
        $250,000          67             28          39         4.13
          $9,500          80              1          79         5.05
        $100,000          52             11          41         3.06
        $259,000         120             29          91         7.88
        $130,000         140             14         126         9.30
      $16,012,300       7,045           845        6,200
 APPENDIX IV. AGENCY COMMENTS                                                                     14



                                U.S. SMALL BUSINESS ADMINISTRATION
                                           WASHINGTON, D.C. 20416




   DATE:         November 30, 2009
      TO:        Debra S. Ritt
                 Assistant Inspector General for Auditing
                 /s/ Original Signed
  FROM:          Eric R. Zarnikow
                 Associate Administrator for Capital Access

SUBJECT:         Draft Report on the Review of Controls Over Job Creation and Retention
                 Statistics Reported by SBA under the American Recovery and
                 Reinvestment Act of 2009. Project 9514A


 Thank you for providing the opportunity to comment on this report.

 The Small Business Administration is committed to accurate and transparent reporting regarding
 the impact of its Recovery Act programs in stimulating the economy and supporting job creation
 and retention.

 We are proud to report that Recovery Act funding of the SBA’s 7(a) and 504 loan programs have
 played a significant role in boosting access to capital and helping create and retain jobs for small
 businesses. Increased loan guarantees in the 7(a) program and reduced fees in both the 7(a) and
 504 loan programs have led to an increase in SBA loan volumes of more than 75 percent in the
 weeks following passage of the Recovery Act compared to the weeks preceding the Recovery
 Act's passage. This has translated into nearly $15 billion of lending support to small businesses
 across the country. These small businesses are reporting that 7(a) and 504 loans approved will
 help them create over 136,000 jobs and retain 290,000 more. While these reported job figures are
 not included in the direct recipient reports collected through the Office of Management and
 Budget to track the impact of the Recovery Act, SBA is committed to helping ensure that this
 borrower-reported information is materially accurate.

 At the same time, we acknowledge some of the challenges associated with measuring the job
 creation impact of SBA’s Recovery Act programs. Throughout the implementation of the
 Recovery Act, we have been actively engaged in discussions across the SBA and OMB to
 identify the most appropriate reporting performance metrics—particularly given the temporary
 nature of these Recovery Act programs.

 We appreciate and agree with several of the Inspector General’s recommendations in this review,
 as we believe that we can take additional steps to help enhance the data quality and controls
 related to the job creation metrics.



 Response to Draft Report on Controls over Job Creation and Retention Statistics
APPENDIX IV. AGENCY COMMENTS                                                                    15


Following are the Agency’s responses to the IG’s recommendations:
Recommendation 1: Implement the necessary controls to check the reasonableness of data,
including user prompts, range checks, and the prevention of negative figure, in E-Tran to
ensure the accuracy of lender-reported job creation and retention statistics.

And, Recommendation 2: Implement a data quality review and testing process to
determine if job data is properly recorded, classified and reported.

    •   We agree with these recommendations, and the SBA is currently considering additional
        controls to ensure improved data quality. We are very focused on these issues, and have
        committed additional resources to address them. In July funds were approved for OCA
        to hire a data quality contractor to assist in the review and testing of Recovery Act
        program data, including job creation data. We have been in the process of procuring the
        data quality contract.
    •   We are looking at our systems, including E-Tran, to determine appropriate long and short
        term business rules around fields for job creation and retention numbers.


Recommendation 3: Determine whether the new jobs reported for ARC loans are data
anomalies and if not, revise performance measures to report on jobs created.

    •   Before SBA’s ARC program was launched, the Agency made a logical assumption that
        that the most significant job impact from the program would likely be job retention rather
        than creation. Although this program was established to help sustain small businesses and
        retain jobs, it is also possible that these loans help employers to create new jobs.
    •   SBA agrees with this recommendation. SBA will review information reported for job
        creation in the ARC program and determine whether to revise goals and reporting to
        include jobs created and retained.


Recommendation 4: Improve the transparency and accountability of the reported data by
disclosing the number of jobs associated with disbursed loans

    •   SBA respectfully disagrees with this recommendation. The Agency has considered the
        IG’s recommendation of reporting job creation both at the point of approval and
        disbursement. However, given guidance from OMB, the SBA has decided that it would
        be most appropriate to maintain reporting on approvals, so job creation impact can be
        most closely tied with the timing of program activity—particularly as disbursement could
        lag for several months after loan approval, could cross into another fiscal year, and could
        increase complexity of the reporting process. Both the Agency and OMB believe that
        reporting information on both approved and disbursed loans would be confusing to users
        of the information.
    •   To ensure transparency, clarity and consistency, the SBA will continue to measure job
        creation and retention from its Recovery Act loan programs using a methodology similar
        to the one used for reporting of non-ARRA job creation/retention in SBA’s Fiscal Year
        2009 annual report. These figures will be adjusted at the end of the fiscal year to reflect


Response to Draft Report on Controls over Job Creation and Retention Statistics
APPENDIX IV. AGENCY COMMENTS                                                                 16


        only the jobs that are reported as created or retained on gross approvals net of
        cancellations.


Recommendation 5: Establish adequate guidance on how lenders should report jobs
created and retained for 7(a) loans.

    •   The 7(a) program is open to a broad range of businesses for diverse purposes; unlike the
        504 program, job creation/retention is not required element of the 7(a) program. SBA
        makes clear in its reporting of job creation and retention figures that they are self-
        reported by borrowers.
    •   SBA will review the consistency of self-reported job creation/retention data and
        determine what level of guidance might be appropriate for borrowers, who include this
        information on their loan forms.


Thank you again for your review, and we look forward to continued engagement and discussion
with you on this critical issue.




Response to Draft Report on Controls over Job Creation and Retention Statistics
